No. 20-900
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------SHELL OIL PRODUCTS CO., L.L.C., et al.,
Petitioners,
v.
RHODE ISLAND,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The First Circuit
---------------------------------♦--------------------------------MOTION FOR LEAVE TO FILE AND AMICUS
BRIEF OF ENERGY POLICY ADVOCATES
IN SUPPORT OF THE PETITIONERS
---------------------------------♦--------------------------------MATTHEW D. HARDIN
Counsel of Record
1725 I Street NW, Suite 300
Washington, DC 20006
(202) 802-1948
HardinLawPLLC@icloud.com
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

1
MOTION FOR LEAVE TO FILE BRIEF OF
AMICUS CURIAE IN SUPPORT OF CERTIORARI
Pursuant to Supreme Court Rule 37.2, Energy Policy Advocates (“EPA”) respectfully moves for leave to
ﬁle the accompanying amicus curiae brief in support of
the Petition for a Writ of Certiorari. Congruent with
the Rule, counsel for EPA provided notice of the amicus’s desire to ﬁle the brief to all counsel of record on
January 6, 2021. Respondent the State of Rhode Island
replied on January 10, 2021, indicating that Rhode Island did not consent to the ﬁling of this amicus brief.
Counsel of Record for the Petitioners did not reply to
either the initial inquiry from the amicus seeking consent to ﬁle its brief or to a follow up email sent on January 15, 2021. As such, the amicus cannot state what
the position of the petitioners is with respect to this
motion.
EPA is interested in this case because it previously
ﬁled an amicus brief in this matter when it was pending before the First Circuit, which that Court considered in evaluating the issues raised below, and for the
same reasons EPA recently ﬁled an amicus brief at
both the petition stage and the merits stage before this
Court in a case that raised similar issues (BP, PLC et
al. v. Mayor and City Council of Baltimore, Case No.
19-1189). In its First Circuit brief in this same matter,
EPA brought to the attention of the Circuit Court records that EPA obtained through state open records
laws, which records illustrate the plaintiff ’s emphasis
on remaining in state court as the venue most likely to
support its drive to obtain, through this litigation, a

2
“sustainable funding stream” for the state that it was
denied by its legislature, which refused to enact
plaintiff ’s desired policies. Other records contain assertions that these lawsuits are to substitute for the
failure to enact federal legislation. In its previous
briefs in this Court in a case raising similar issues,
EPA raised the alarm that federal courts remanding
claims to state court without substantial consideration
of implications for federal policy undermine this
Court’s own precedents and recent Congressional enactments.
EPA wishes to support the petition for certiorari
in this case because the decision below has implications for a growing number of similar lawsuits nationwide. These suits are part of a documented and
coordinated national campaign of state-court litigation, and EPA hopes that this Court will ensure the
lower courts give serious consideration to issues of
state court bias and to the actual, confessed motivations of plaintiffs who seek remand. EPA believes that
the arguments set forth in its brief will assist the Court
in resolving the issues presented by the petition and
amplify its previous brieﬁng on these issues.
As a nonproﬁt incorporated in Washington State,
EPA has no direct interest, ﬁnancial or otherwise, in
the outcome of the case, aside from its interest in good
governance and advocating for the proper role of the
federal judiciary. Because of its lack of a direct interest,
combined with its intimate and ﬁrsthand knowledge of
the records illustrating the above concerns about the
motivations of Rhode Island in seeking remand, EPA

3
can provide the Court with a perspective that is distinct and independent from that of the parties. For the
foregoing reasons, EPA respectfully requests that this
Court grant leave to ﬁle the accompanying amicus curiae brief.
Respectfully submitted,
MATTHEW D. HARDIN
Counsel of Record
1725 I Street NW, Suite 300
Washington, DC 20006
(202) 802-1948
HardinLawPLLC@icloud.com

i
TABLE OF CONTENTS
Page
MOTION FOR LEAVE TO FILE BRIEF OF
AMICUS CURIAE IN SUPPORT OF CERTIORARI ..............................................................

1

INTEREST OF THE AMICUS ............................

1

SUMMARY OF THE ARGUMENT .....................

2

ARGUMENT ........................................................

6

I.

II.

PUBLIC RECORDS OBTAINED BY EPA
DEMONSTRATE THIS CASE IS AN ATTEMPT TO USE THE COURTS TO OBTAIN OR INFLUENCE POLICY THROUGH
IMPROPER MEANS .................................

6

CONCERNS ABOUT STATE COURT BIAS
ARE AMPLIFIED IN THIS CASE .............. 15

CONCLUSION..................................................... 18

ii
TABLE OF AUTHORITIES
Page
CASES
American Electric Power v. Connecticut, 131
S. Ct. 2527, 564 U.S. 410 (2011) .................. 10, 12, 16
City of New York v. BP P.L.C., 325 F. Supp. 3d
466 (S.D.N.Y. 2018) ...................................................2
City of Oakland, et al. v. BP P.L.C., et al., 325
F. Supp. 3d 1017 (N.D. Cal. 2018) .............................2
Murray v. Murray, 621 F.2d 103 (5th Cir. 1980) ........15
Savoie v. Huntington Ingalls, Inc., 817 F.3d 457
(5th Cir. 2016)..........................................................15
Watson v. Philip Morris Cos., 551 U.S. 142
(2007).................................................................... 15
Willingham v. Morgan, 395 U.S. 402 (1969) ..............15

1
INTEREST OF THE AMICUS1
Energy Policy Advocates (“EPA”) is a nonproﬁt organization incorporated under the laws of Washington
State, dedicated to bringing transparency to the actions of government at all levels. As part of its mission,
EPA ﬁles open records requests under both state and
federal laws and conducts research into how governmental policies on energy and environmental issues
are made.
EPA has obtained emails, handwritten and typewritten notes, and purported conﬁdentiality and “common interest” agreements that illustrate the genesis of
and machinations behind the new wave of climate nuisance litigation in state courts. These records reveal an
attempt to raise governmental revenues and obtain
national policies, both outside the ordinary democratic
process. EPA feels it is in the interests of justice to
bring the records it has obtained to the attention of
this Court so that it may consider whether a Circuit
Court’s decision to remand a case from federal court
to state court runs counter to federal policies relating
to energy or the environment, or to the federal interest
in ensuring the integrity of the judicial system as a
whole.
---------------------------------♦--------------------------------1

No counsel for a party authored this brief in whole or in
part, and no counsel or party made a monetary contribution intended to fund the preparation or submission of this brief. No person other than amicus curiae EPA, its members, or its counsel
made a monetary contribution to its preparation or submission.

2
SUMMARY OF THE ARGUMENT
The District Court’s discussion of the factual background in this matter begins with the sentence “Climate change is expensive, and the State wants help
paying for it.” App. 27a. By the time the Circuit Court
handed down its opinion in this case, however, plaintiff
had transformed its argument from a focus on obtaining for Rhode Island some “help” paying for climate
change, into a new argument more focused on alleged
failure to warn or false advertising. The First Circuit
summarized the state’s evolving position as follows:
“Rhode Island sued a slew of oil and gas companies for
the damage caused by fossil fuels while those companies misled the public about their products’ true risks.”
App. 6a (emphasis added).
This shift, through rhetorical sleight of hand on
appeal, coincided with a change in approach by “climate” plaintiffs from seeking relief based on the law of
nuisance to seeking relief grounded in consumer protection after plaintiff ﬁled suit in 2018, after the nuisance claims suffered setbacks in federal court on both
coasts.2 Yet this case has always been a public nuisance suit, and was even listed in an “Amendment to
Confidentiality Agreement Regarding Participation
in Climate Change Public Nuisance Litigation” among
ideologically aligned state attorneys general, signed
by Rhode Island on November 26, 2019.3 That pact,
2

City of Oakland, et al. v. BP P.L.C., et al., 325 F. Supp. 3d
1017 (N.D. Cal. 2018), and City of New York v. BP P.L.C., 325
F. Supp. 3d 466 (S.D.N.Y. 2018).
3
EPA obtained the original April 25, 2018 Agreement and
2019 Amendment from, inter alia, Rhode Island’s Ofﬁce of the

3
claiming a common interest among attorneys general
from coast to coast “in one or more cases brought, or
that will be brought, in state court or U.S. District
Court, or appealed to state or federal courts of appeal,
including the highest state appellate court or the U.S.
Supreme Court” cited seven cases “referred to herein
as the ‘Litigation.’ ” That list of cases included “Rhode
Island v. Chevron Corp. (R.I. Super. Ct. PC-2018-4716,
and D. R.I. 18-00395).”
The pact that Rhode Island’s Attorney General
and fellow travelers in the climate litigation movement
amended (by adding the Rhode Island case to its scope)
sets forth its objective: “The Parties to this Agreement
have a common interest in ensuring the proper application of the federal and/or state common law of public
nuisance arising from the effects of climate change, including sea level rise.”4
The District Court’s blunt assessment of Rhode
Island’s monetary goals aligns with the factual allegations in the complaint originally ﬁled in Rhode Island’s
Superior Court and thereafter removed to federal
court, and comports with facts that have come to light
Attorney General under that state’s Access to Public Records Act.
The document, which bears the title “Amendment to Conﬁdentiality Agreement Regarding Participation in Climate Change Public Nuisance Litigation,” is available at https://climatelitigation
watch.org/wp-content/uploads/2021/01/Climate-Change-PublicNuisance-Litigation-CIA-Amendment.pdf.
4
The document, styled as a “Conﬁdentiality Agreement Regarding Participation in Climate Change Public Nuisance Litigation,” is available at https://climatelitigationwatch.org/wp-content/
uploads/2021/01/Climate-Change-Public-Nuisance-Litigation-CIA.pdf.

4
as a result of EPA’s efforts obtaining public records under various state transparency laws.
EPA has obtained emails and handwritten and
typewritten notes under public records laws that shed
light on the motives behind this proceeding. These documents expressly acknowledge the state’s motives not
only for pursuing this litigation (its General “Assembly
[led by] very conservative leadership – doesn’t care
about env’t,” which has left the state’s executive branch
“looking for sustainable funding stream” for its spending ambitions) but also for pursuing it in state court.
These two sets of notes each purport, independently, to
record the emphasis by a cabinet-level state of Rhode
Island ofﬁcial that this lawsuit was ﬁled in “State court
against oil and gas” because of the executive’s “Priority
– sustainable funding stream” needed to fulﬁll certain
spending ambitions which the executive failed to convince the voters’ elected representatives to satisfy
through the ordinary process of taxation.5
These public records obtained by EPA document
the political impetus for ﬁling suit, while offering a remarkable “tell” about the plaintiff ’s true feelings about
5

These notes are available, respectively, at https://climate
litigationwatch.org/wp-content/uploads/2020/03/Carla-Frischhandwritten-notes-EPA_CORA1505.pdf and https://climatelitigation
watch.org/wp-content/uploads/2020/03/EF-Katie-McCormack-typednotes-EPA_CORA1542.pdf. These documents are identiﬁed in an
August 20, 2019 email from CNEE’s Patrick Cummins to RBF's
Michael Northrop, Subject: meeting highlights, available at https://
climatelitigationwatch.org/wp-content/uploads/2020/03/Edited-notestransmittal-email-CSU-suggests-Snail-mail-probably-covered-EPA_
CORA1481_Redacted.pdf.

5
its claims of loss and looming disaster, especially in
light of the state’s professed intention to rely on purportedly planet-killing activities as a “sustainable”
funding source. Even more concerning, both sets of
notes identify plaintiff ’s emphasis on the “state court”
aspect of its plan, reﬂecting that the state shares the
fear expressed by other members of its team that its
claims may be doomed by the faithful application of
federal law by federal courts.
Other public records obtained by Energy Policy
Advocates and its counsel document members of the
plaintiff ’s legal counsel’s team, in its efforts to recruit other governmental entities as plaintiffs in its
campaign, acknowledging the team’s view that state
courts are the “more advantageous venue for these
cases.”6 These records, expressing candid views in public records which the parties may not have expected to
be released, leave little doubt that the instant litigation has at least two impermissible objectives.
First, as also explained, infra, the state plaintiff in
this matter seeks to use state courts to effectively create or modify federal energy and environmental policy,
as stand-ins for the political process that has denied
plaintiff its desired policies. Second, the state seeks to
raise revenues through the courts and with a judicial

6

See, e.g., email from a recruiter for Rhode Island counsel
Sher Edling, LLP named Seth Platt to the Mayor of Fort Lauderdale, Florida, at https://climatelitigationwatch.org/wp-content/uploads/
2019/09/GsPlatt-responds-to-Ft-Lauderdale-signaling-Judge-Alsupopinion-is-too-much-for-them.pdf.

6
imprimatur, rather than through the proper legislative
means through which it confesses to have failed.
The public records EPA has obtained provide
strong impetus to acknowledge, despite the state’s assertions otherwise and the appellate court’s indulgence of the shifting characterization of the claims at
issue here, that this suit is a part of a much broader
wave of “climate nuisance” litigation that seeks to use
the courts to attain political goals denied the plaintiffs
through the political process.
---------------------------------♦---------------------------------

ARGUMENT
I.

PUBLIC RECORDS OBTAINED BY EPA
DEMONSTRATE THIS CASE IS AN ATTEMPT TO USE THE COURTS TO OBTAIN
OR INFLUENCE POLICY THROUGH IMPROPER MEANS.

EPA has obtained public records from Colorado
State University’s Center for a New Energy Economy
(“CNEE”) under the Colorado Open Records Act
(“CORA”). The records pertain to a two-day meeting
in July 2019 hosted by the Rockefeller Brothers
Fund (“RBF”) at the Rockefeller family mansion at
Pocantico, New York, and include numerous emails,
agendas and other materials. Most pertinent to this
brief, they also include a set of handwritten notes and
a second, corroborating set of typewritten notes both
taken by attendees. The former was prepared by attendee Carla Frisch of the Rocky Mountain Institute

7
(“RMI”), and the latter by attendee Katie McCormack
of the Energy Foundation.7 Both Ms. Frisch and Ms.
McCormack are afﬁliated with well-known energy and
environmental policy advocates, with no apparent or
particular scholarly expertise in nuisance or state
truth-in-advertising claims.
The 2019 RBF meeting, styled “Accelerating State
Action on Climate Change,” was a private affair which
served as a forum for policy activists and a major funder to coordinate with senior public employees.8 The
latter included, for example, a governor’s chief of staff,
and department secretaries and their cabinet equivalents from ﬁfteen states.9 These states included plaintiff Rhode Island, represented by its Director of the
Department of Environmental Management, Janet
Coit.
These meeting notes obtained by EPA purport to
contemporaneously record the comments of Director
Coit discussing the instant matter among peers. One
passage in each set of notes, attributed to Director
Coit and replicated almost verbatim in both, illustrates both that the state seeks to use litigation to
force a change in climate policy, and that the state is

7

See fn. 5, supra.
The agenda for the meeting is available at https://govoversight.
org/wp-content/uploads/2020/01/Draft-Agenda-EPA_CORA0008copy.pdf.
9
The participant list is available at https://climatelitigation
watch.org/wp-content/uploads/2020/03/List-of-Attendees-EPA_CORA
1037.pdf.
8

8
motivated by ﬁscal policy to ﬁle its litigation in state –
rather than federal – court.
Rocky Mountain Institute’s Frisch recorded Director Coit speaking to this litigation as shown in the below excerpted image:

Ms. Frisch recorded Director Coit as saying, about
this suit:
RI – Gen Assembly D but doesn’t care on
env/climate
looking for sustainable funding stream
suing big oil for RI damages in state court10
The ﬁrst line attributes to Director Coit the position that the Rhode Island legislature is not persuaded
of the claims set forth by the state in this matter. It
10

Ms. Frisch’s notes are available in full at https://climate
litigationwatch.org/wp-content/uploads/2020/03/Carla-Frisch-hand
written-notes-EPA_CORA1505.pdf.

9
appears to also reﬂect her informed view of why the
legislature has declined to directly obtain from the taxpayer the revenue streams that plaintiff desires. The
next two lines attributed to Director Coit are only further evidence of the true objectives behind the plaintiff ’s suit. Speciﬁcally, to the state executive branch’s
displeasure, the legislature is not the party “looking for
[a] sustainable funding stream.”
These notes reﬂect a senior ofﬁcial confessing that
Rhode Island’s climate litigation is in fact a product of
Rhode Island’s elected representatives lacking enthusiasm for politically enacting certain policies, including concomitant revenue measures. Thus, rather than
work with the “very conservative” Rhode Island legislature to obtain such policies through the give and take
of the legislative process, the state’s executive branch
elected to “look for [a] sustainable funding stream” by
“suing big oil.”
We can be conﬁdent that Ms. Frisch did not mishear Director Coit. The Energy Foundation’s Katie
McCormack provided RBF with a typewritten set of
her own notes transcribing the proceedings.11 Ms.
McCormack’s typewritten transcription of Director
Coit’s commentary reads almost verbatim to the recollection of Ms. Frisch.

11

Ms. McCormack’s notes are available in their entirety at
https://climatelitigationwatch.org/wp-content/uploads/2020/03/
EF-Katie-McCormack-typed-notes-EPA_CORA1542.pdf.

10
Ms. McCormack recorded Director Coit as saying:
•

Assembly very conservative leadership –
don’t care about env’t

•

If care, put it in the budget

•

Priority – sustainable funding stream

•

State court against oil/gas

These notes EPA obtained through public records
requests illustrate two troubling aspects of the recent
epidemic of “climate nuisance” litigation, which has
been channeled into state courts (after the ﬁrst generation of suits ﬂoundered in federal court, and ultimately were terminated by this Court in American
Electric Power v. Connecticut, 131 S. Ct. 2527, 2539,
564 U.S. 410, 426 (2011)). Speciﬁcally, these suits seek
to use the (state) courts to stand in for (state and federal) policymakers in at least two ways. First, these
suits ask the state courts to substitute their authority
for that of the political branches of government at both
the state and federal level on matters of climate policy.
Second, these suits seek billions of dollars in revenues,
which would properly be obtained through taxation enacted by legislators, for distribution toward political
uses and constituencies.
With respect to the ﬁrst issue – policymaking
through the courts – the RBF meeting notes echo a
comment made to The Nation magazine by the plaintiffs’ tort lawyer credited with inventing this wave of
litigation. The Nation’s Zoe Carpenter wrote, “[I]t’s
clear that too many lawmakers have abdicated, thus

11
the pressure to tackle the climate issue through existing regulations like the Clean Air Act, and through the
courts. ‘I’ve been hearing for twelve years or more that
legislation is right around the corner that’s going to
solve the global-warming problem, and that litigation is too long, difﬁcult, and arduous a path,’ said Matthew Pawa, a climate attorney. ‘Legislation is going
nowhere, so litigation could potentially play an important role.’ ”12
Rhode Island’s attempted use of the courts to attain revenue and other policy ends that have eluded it
through legislation or regulation is improper, but the
attempt also informs a conclusion that these cases,
when brought, belong in federal court. Such suits
should also be dismissed for reasons including the inherently obvious, and now repeatedly confessed, purpose.
If the plaintiff ’s motivation to obtain and influence policy were not itself an improper use of the
courts, the proponents of this new wave of climate
litigation are also increasingly candid about the litigants’ motive to use the pressure of litigation to force
opponents to capitulate to legislative change that
they otherwise oppose, or support with insufficient enthusiasm. Another example of the records EPA has
obtained in which the improper motive for ﬁling the
new wave of “climate nuisance” suits is an email in
12

Zoe Carpenter, “The Government May Already Have the
Law It Needs to Beat Big Oil,” The Nation, July 15, 2015,
https://www.thenation.com/article/the-government-may-alreadyhave-the-law-it-needs-to-beat-big-oil/.

12
which an ofﬁcial with one municipal nuisance plaintiff
(the City of Boulder, Colorado) admits the City’s position in ﬁling its suit, that “the pressure of litigation
could also lead companies . . . to work with lawmakers
on a deal” about climate policies.13 Former Connecticut
Attorney General Richard Blumenthal is quoted describing American Electric Power v. Connecticut, 564
U.S. 410, 426 (2011), which suit he brought before being elected to the United States Senate, “My hope is
that the court case will provide a powerful incentive
for polluters to be reasonable and come to the table . . .
We’re trying to compel measures that will stem global
warming regardless of what happens in the legislature.”14 This Court cannot sanction the use of the judiciary to force energy and environmental legislative
policy change that plaintiffs seek, including to arrange for the equivalent of energy taxes the legislature will not provide, and it should be especially
zealous in protecting federal policies and legislation
from being forced by actions taken in various state
court systems.
The second conclusion afﬁrmed in the twicesourced assertions by Rhode Island’s ofﬁcial that EPA
has obtained is that this the new wave of state court
13

January 5, 2018 email from Boulder Chief Sustainability
& Resilience ofﬁcer Jonathan Koehn to Alex Burness of the Boulder Daily Camera, Subject: RE: Follow-up to council discussion.
Available at https://climatelitigationwatch.org/boulder-official-climatelitigation-is-tool-to-make-industry-bend-a-knee/.
14
Editorial, “The New Climate Litigation,” Wall Street Journal, December 28, 2009, https://www.wsj.com/articles/SB100014
24052748703478704574612150621257422.

13
“climate nuisance” litigation is a grab for state ﬁscal
revenue streams which are only properly enacted
through the political process. In the ordinary political
process, revenues are raised by legislators and spent
by the executive branch according to legislative authorization and appropriation. This new wave of litigation promises to erode the separation of powers by
using courts, rather than legislators, to raise revenues
for the executive branch to spend.
As the U.S. Chamber of Commerce noted in a 2019
report entitled “Mitigating Municipality Litigation:
Scope and Solutions,” the desire of the municipal and
state plaintiffs for more governmental revenue, without adopting the necessary direct taxes for which there
can be a political price to pay, appears to be a key driver
of such litigation. That report highlighted:
• “For instance, local government leaders may
eye the prospect of signiﬁcant recoveries as a means of
making up for budget shortfalls.”
• “Large settlements like those produced in the
tobacco litigation are alluring to municipalities facing
budget constraints.”
• “Severe, persistent municipal budget constraints have coincided with the rise of municipal
litigation against opioid manufacturers as local governments are promised large recoveries with no risk to
municipal budgets by contingency fee trial lawyers.”
• “Conclusion A convergence of factors is propelling municipalities to ﬁle afﬁrmative lawsuits against
corporate entities. There is the ‘push’ factor: municipalities face historic budgetary constraints and a public

14
inundated with news reports on the opioid crisis, rising
sea levels, and data breaches. And there is the ‘pull’ of
potential multimillion dollar settlements and low-cost,
contingency fee trial lawyers. As a consequence, municipalities are pivoting to the courts by the thousands.”15
The National Association of Manufacturers’ Center for Legal Action has similarly argued that, “The
towns and lawyers have said that this litigation is
solely about money. The towns want funding for local
projects, and their lawyers are working on a contingency fee basis, which means they aren’t paid if they
don’t win.”16
The records EPA has obtained provide documentary evidence to support its concern that the “climate
nuisance” plaintiffs, and most openly Rhode Island,
seek to exploit state courts to balance municipal/state
budgets, to erode the separation of power between
branches of state governments, and to compel policy
decisions that both state and federal legislators have
declined to make. This Court should grant certiorari to
guard against this improper use of the judiciary.

15

United States Chamber of Commerce, “Mitigating Municipality Litigation: Scope and Solutions,” U.S. Chamber Institute
for Legal Reform, March 2019, https://instituteforlegalreform.com/
wp-content/uploads/2020/10/Mitigating-Municipality-Litigation-2019Research.pdf, at pp. 1, 6, 7 and 18, respectively.
16
Manufacturers’ Accountability Project, “Beyond the Courtroom: Climate Liability Litigation in the United States,” p. 2,
https://mfgaccountabilityproject.org/wp-content/uploads/2019/06/
MAP-Beyond-the-Courtroom-Chapter-One.pdf.

15
II.

CONCERNS ABOUT STATE COURT BIAS
ARE AMPLIFIED IN THIS CASE.

As EPA has noted in its amicus briefing in a similar case pending before this Court, the “historic concern about state court bias” is the underlying basis
allowing for federal officer removal. Savoie v. Huntington Ingalls, Inc., 817 F.3d 457, 461 (5th Cir. 2016).
This Court has explicitly recognized bias as a concern
justifying removal to federal court. Although judicial
officers in both state and federal courts nationwide no
doubt do their level best to adjudicate the disputes
that come before them, this Court has held that
“State-court proceedings may reflect ‘local prejudice’ against unpopular federal laws or federal officials.” Watson v. Philip Morris Cos., 551 U.S. 142, 150
(2007).
Simply put, and despite best efforts to avoid its
influence, bias exists. There is no reasoned basis to
adopt a crabbed interpretation of “against unpopular
federal laws or ofﬁcials.” Indeed, this Court has cautioned against “narrow, grudging interpretation” of
federal ofﬁcer removal. Willingham v. Morgan, 395 U.S.
402, 407 (1969). Because “[t]he removal statute is an
incident of federal supremacy,” Murray v. Murray, 621
F.2d 103, 106 (5th Cir. 1980), federal supremacy demands that this Court step in once again to ensure
cases that strike at the heart of important federal policies are heard in federal court.
Just as this Court warned in Watson, the state of
Rhode Island is engaged in a campaign through the
courts to overturn “unpopular federal laws.” Rather

16
than recognizing the Constitution and federal law as
supreme, governmental “climate nuisance” plaintiffs
are applying a “narrow, grudging” interpretation of the
removal statute to seek to overturn federal law through
imposing ostensible tort liability in state courts. That
this grudging interpretation of the federal law of removal coincides with a grudging interpretation of
American Electric Power and an expansive view of the
ability of the executive branch of government to raise
its own revenues, only highlights the need for this
Court to step in to avoid the appearance of state court
bias and ensure the faithful application of federal
law.
It is hard to imagine a more striking case where a
perception of state court bias gives rise to concern than
is presented in this case, in which the clear hope for
state court bias is demonstrated in the express litigation strategy revealed in the aforementioned records
obtained by Energy Policy Advocates through public
records laws.
As documented, supra, by its own admission the
State of Rhode Island is pursuing this litigation to obtain a “sustainable funding stream” for its executive
branch ofﬁcials’ spending ambitions, and is doing so
expressly because the legislature has failed to live up
to the executive branch’s hopes. Both sets of notes
specify Director Coit’s emphasis before an audience of
largely, or even entirely non-lawyer, senior executive
policy ofﬁcials, on seeking this “sustainable funding
stream” in “state court.” The state’s objective of suing
to create, inﬂuence, or even overturn federal policy and
raise state revenues in state courts is a thematic

17
cousin of the drive to use the courts when legislatures
fail to enact plaintiff ’s desired policies, and is wellunderstood among plaintiff ’s team.
For example, and again turning to documents
made public through open records laws, consider the
description by a member of the state’s outside legal
counsel’s own team. After U.S. District Judge William
Alsup dismissed the City of Oakland’s “climate nuisance” suit against many of the same defendants in
June 2018, and immediately prior to the state of
Rhode Island filing its suit in Rhode Island Superior
Court, UCLA Law professor and also consultant to
plaintiff ’s counsel Sher Edling, Ann Carlson,17 reiterated her belief, for whatever reason, that the plaintiff ’s chances for recovery are much better in state
fora.18 And a recent Los Angeles Times news article
quoted Carlson’s colleague and also apparently consultant for plaintiff ’s counsel, Sean Hecht, on this topic
of state courts being “more favorable to ‘nuisance’ lawsuits.”19

17

Ms. Carlson’s disclosures to the University of California at
Los Angeles regarding her outside employment with plaintiff ’s
counsel Sher Edling can be found at https://climatelitigationwatch.org/wp-content/uploads/2021/01/Responsive-Documents-208525.pdf.
18
Mark Kaufman, “Judge tosses out climate suit against big
oil, but it’s not the end for these kinds of cases,” mashable.com,
June 26, 2018, https://mashable.com/article/climate-change-lawsuitbig-oil-tossed-out/.
19
Susanne Rust, “California communities suing Big Oil over
climate change face a key hearing Wednesday,” Los Angeles
Times, February 5, 2020, https://www.latimes.com/california/story/

18
This case presents a unique situation where the
plaintiff confessed its strategy to obtain fiscal revenues to underwrite desired policies through litigation in state court, the plaintiff ’s counsel’s consultants
expressed their view that the plaintiff is more likely
to obtain success in state court, and major news outlets echo the common perception that state courts are
more hospitable for the plaintiff ’s claims. This case
presents a near-ideal exemplar of when the federal
courts should step in to ensure perceptions of fair play
against even the perception of bias.
---------------------------------♦---------------------------------

CONCLUSION
These notes EPA has obtained from the July 2019
Rockefeller-hosted meeting demonstrate the need for
this Court to confront the expanding and nationally
coordinated tsunami of state-court “climate nuisance” litigation. Such suits are not only a grab for
revenue and other desired policies that have eluded
parties through the political process, but demean the
federal judiciary by attempting to seek to coerce or
effectively compel federal policies in state court. This
Court should grant certiorari to make clear that federal courts are the proper forum to obtain a ruling
relating to federal energy and environmental policy
matters and to ensure that courts at both the state and
federal level are perceived to rule on such issues in
2020-02-05/california-counties-suing-oil-companies-over-climatechange-face-key-hearing-wednesday. See also, e.g., fn. 6, supra.

19
accordance with the law rather than based on apparent or anticipated biases.
Respectfully submitted,
MATTHEW D. HARDIN
Counsel of Record
1725 I Street NW, Suite 300
Washington, DC 20006
(202) 802-1948
HardinLawPLLC@icloud.com

